33

CERTIFICATE OF SERVICE
I, Frances Kuo, a member of the Bar of this Court, hereby declare that on
September 28, 2020, as required by Supreme Court Rule 29, I served the enclosed
Motion for Leave to Proceed In Forma Pauperis and Petition for Writ of Certiorari,
including the appendix, on the State of Georgia by serving counsel for the State,
Andrew Pinson, by depositing an envelope containing the above documents in the
United States Mail, with first-class postage prepaid, addressed as follows:

Andrew Pinson
Solicitor General
Department of Law

40 Capitol Square, SW
Atlanta, GA 30334

Respectfully submitted,

/s/FRANCES KUO
FRANCES KUO
Counsel of Record

214 Executive Building
125 East Trinity Place
Decatur, GA 30030
Tel: (404) 378-1241
